<html>
<title> - STATUS OF TOLL INTEROPERABILITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     STATUS OF TOLL INTEROPERABILITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                           Serial No. 114-56

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                ___________
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-976 PDF                    WASHNGTON : 2016                        
                      
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a>  
            
              
              
              
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
Michael Kiko, Staff Director, Subcommittee on Transportation and Public 
                                 Assets
                           Sarah Vance, Clerk
             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 30, 2015...............................     1

                               WITNESSES

Mr. Jeffrey Lindley, Associate Administrator, Office of 
  Operations, Federal Highway Administration, U.S. Department of 
  Transportation
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Patrick Jones, Executive Director and CEO, International 
  Bridge, Tunnel, and Turnpike Association
    Oral Statement...............................................     9
    Written Statement............................................    10
Mr. James J. Eden, President, Alliance for Toll Interoperability
    Oral Statement...............................................    10
    Written Statement............................................    12
Mr. Thomas S. Knuckey, Tolls Technology Sector Manager, Atkins 
  Global
    Oral Statement...............................................    12
    Written Statement............................................    14

                                APPENDIX

Testimony of Diane Gutierrez-Scaccetti...........................    30
Testimony submitted for the record, Status of Toll 
  Interoperability...............................................    32

 
                    STATUS OF TOLL INTEROPERABILITY

                              ----------                              


                     Wednesday, September 30, 2015

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Grothman, Duckworth, Watson 
Coleman, DeSaulnier, and Boyle.
    Mr. Mica. Well, good afternoon. I would like to welcome 
everyone to the Subcommittee on Transportation and Public 
Assets, a subcommittee of the Government Oversight and Reform 
Committee, and welcome them to a hearing today that is entitled 
the ``Status of Toll Interoperability.''
    While we don't have the crowd we had yesterday on Planned 
Parenthood or--I have been here through Whitewater and 
Travelgate and other hearings--I am very pleased that we do 
have the witnesses that we have and those who are attending, 
because this is one of our meat-and-potato hearings. All the 
hearings of this committee are not blockbusters, but many of 
them are very important and achieve some important things for 
the American people. And our focus today, again, is on the 
status of toll interoperability.
    The order of business is I am going to open with an opening 
statement. I will yield to Mr. Boyle, who is serving as our 
ranking member. And any other members will have at least 10 
legislative days to submit a statement for the record.
    Without objection, so ordered.
    Mr. Mica. So we may be joined by others. And we will be 
having votes, so we want to keep this moving.
    Then we will hear from our witnesses, and I welcome them 
again. And then, after we hear from all four of our witnesses, 
we will go to questions.
    So it won't be a long hearing. It won't be too brutal for 
our witnesses. In fact, I think it is one of those that 
everybody can come away with and see something positive as a 
result.
    So, with that, I will start with my opening statement.
    And it is pretty exciting for me--I had chaired the 
Transportation Committee, been on the Transportation Committee 
for more than two decades, honored to have leadership 
positions. Worked on the last transportation bill, which we did 
pass. They, I think, today are seeing the struggle and 
difficulty of passing major bills. Our bill turned out, because 
of funding, to be a 2-1/4-year bill. So it wasn't a long-term, 
it didn't have a huge amount of financing, but it kept us 
moving. And that is the legislation we are working under today.
    Within that legislation were a number of policy changes. 
And I have to tell a quick story about how this particular 
provision--I put in the bill a provision that, within a certain 
amount of time--and that time will lapse by October of 2016--
all of the toll passes, the electronic devices that are used to 
access tolls, throughout the country would be interoperable.
    It came about as a result of an incident--I have been 
married for 43 years and in Congress for 23. And most of the 23 
years in Congress, at Thanksgiving I leave Washington. I go up 
I-95, and my mother-in-law, who passed away a couple of years 
ago, my wife and I would visit her for Thanksgiving or the 
holidays. And with me I would take my little pass from home, 
and I would put it in my briefcase, and when I got to the 
tollway, lo and behold, it didn't work.
    It was prior to starting this legislation, and I called the 
staff and I said, well, maybe this is my mother-in-law 
provision, but when we do the bill, let's see if we can put a 
provision in.
    First, we talked to folks and said, are they capable of 
producing an interoperable system and device, and is it 
technically feasible? And the answer was yes. And then the next 
thing was, how long would it take? And we thought we would give 
adequate time, and we would give about a little more than 3 
years and then some to get this in place. But it is from a 
technical standpoint possible and a reasonable amount of time 
moving forward.
    Now, it is a year from now when this bill kicks in. I will 
announce today that I will be providing some legislation which 
will be an incentive to make certain that this happens. Some of 
those in the industry may not like the incentive, but there 
will be a toll to pay if you aren't participating in this. I am 
not going to give you all the details, but there will be a toll 
and price to pay. I just want to have a little motivator to 
make certain the provision is moving forward.
    And let me say at the outset that the industry has been 
great. They have come together. With the announcement of this 
hearing, Mr. Boyle, we have already accomplished some things. 
Some parties who couldn't quite agree, I think, on some issues 
have come together just most recently, even since the 
announcement of this hearing. And we continue to hope to hear 
and see that spirit of cooperation in getting what we hope 
achieved.
    So the most important thing is, in our era, why should we 
have--this is just a sampling of the passes here, all the 
passes. Now, these are the big ones and the other size ones. We 
have all kinds of passes here, dozens of passes, electronic 
passes. And now the passes are actually getting a lot smaller. 
Here is some of them, little pieces.
    But our goal is to make it convenient. Our goal is to move 
traffic on our congested interstates and our toll roads faster 
and accommodate people and not have the backup, not have the 
congestion they have experienced. So the driver does not have 
to stop. It is safer, again, and I think it will be a boon to 
everyone.
    Each year, more than $13 billion is generated in electronic 
toll collection revenue, and it serves some 45 million 
customers. And I think the more convenient, the more people 
will use the system.
    The Alliance for Toll Interoperability has made some very 
good efforts to identify business rules for exchanging and 
settling these transactions, and I think we can get even 
further, and we will. And we will work with you.
    With the national interoperability, there must be regional 
interoperability, as well. The committee has learned that 
Florida, my State, has taken a lead, and we have seen some 
great combination already. Some of the Southern States and 
other States have already banded together--and regions--and you 
can use the same pass and go.
    I am very pleased to announce today, and we will hear, 
hopefully, some more specifics about this.
    Now, listen to this. With this pass here--I will just use 
this one; we don't want to give anybody too much credit here. 
But with this pass, we are very close to reaching an agreement.
    And listen to this, Mr. Boyle, since you told me you drove 
from Maine to Florida----
    Mr. Boyle. Not quite Maine, but Boston all the way to----
    Mr. Mica. Darn near close. Just up and across the way.
    But you will be able to go down 95 from Maine to Florida, 
my State, up to your area in the Northeast with one pass. And 
that is a result of progress that has been made just in the 
last few days. So I compliment you on that. I want to hear more 
about that. And then we want the date when folks can do that.
    So that is pretty exciting. You probably won't be using 
this one. You will probably be using one of these little 
stickers, but we will hear more about that.
    So I believe that we have made some very positive steps 
towards achieving interoperability. While tolling is an 
essential tool to supplement revenues for transportation 
infrastructure--and, as you may know, also, in the last bill, 
we have started a whole bunch of projects.
    I have a $2.4 billion one in central Florida. We have 
enough money to improve our interstate through central Florida, 
but we don't have enough money to expand it. So, through the 
public-private partnership, under construction now--and it is 
one hell of a mess already--we have through 20 miles of 
downtown Orlando underway--not planned, but underway--the 
construction of four additional lanes. And this will also be 
operated under a toll system.
    I have mandated in the legislation all three lanes stay 
free, but we could use additional existing right of way, inside 
median, and other assets that sit there idly towards expanding 
capacity, having a way to pay it down, and having a way to 
construct it, and adding, again, capacity. And that frees up 
the free lane, so people who can't pay can go faster, and 
people who want to pay can help build, pay for, and pay down 
the cost of that improvement.
    Tech startups are currently developing tolling solutions 
with a smartphone. I believe this will probably be one of the 
next ways that we will be paying not only for tolls but for 
many other things. Some people have already seen it. It is very 
innovative, but this is coming next.
    I am also using this and other technology from this as a 
way to read in realtime the flow of traffic and very cost-
effectively in realtime change the signalization and allow cars 
to flow faster and also more cars to be used in the same amount 
of capacity by getting people where they want to go.
    So these two devices--again, this is almost passe--but will 
help us also, electronically and technically, move vehicles and 
traffic faster.
    So the future will see cars talking to each other. I had a 
rental car this weekend; it talked to me. I got a little over 
in the wrong lane. It sure as hell woke me up. And I got a 
little too close to the car in front of me, and it sure as heck 
did have a conversation with me. In fact, I thought I had done 
something really wrong.
    But we are on the verge of some incredible technology 
breakthroughs. And you all today are part of one that will make 
a big difference nationally.
    We must be able to allow for a bridge to that environment 
as new technologies come to light, while remaining cognizant of 
consumer privacy. That privacy is a very important element.
    So, this afternoon, I look forward to hearing your 
testimony. Pretty exciting to see something you proposed 
finally coming into fruition and reality. And I thank each and 
every one of you for being here. We look forward to working 
with you.
    I am pleased to also finally ask unanimous consent that the 
testimony from Florida's Turnpike Enterprise and E-ZPass are 
entered into the record. They submitted that to me.
    Without objection, so ordered.
    Mr. Mica. And, of course, we will take any other requests 
in a similar manner.
    Mr. Mica. With that, Mr. Boyle, welcome, and thank you. You 
are recognized.
    Mr. Boyle. Well, thank you, Mr. Chairman.
    And I thank all of you who are gathered. And, as the 
chairman pointed out in the beginning, as we were both here 
yesterday, there might have been one or two more people at that 
hearing than this one. And while this issue might not have the 
sexiness of some others, actually, this is critically 
important. This is the real work of Congress and our 
government, and this is the kind of thing that goes on behind 
the scenes, doesn't get as much attention but, I suspect, will 
actually have a longer-lasting impact.
    As Chairman Mica was mentioning, I am from Pennsylvania. I 
have driven almost every mile of I-95. I can say that from 
about New Hampshire to where I-95 ends, just south of Miami. 
And, about four or five times, I have driven it from 
Philadelphia down to Florida.
    So I happen to be a big fan of E-ZPass. I am so glad that 
in the Northeast, when I drive, even on the frequent trip that 
I make from Philadelphia to Washington, that I am able to come 
here, despite going through Delaware and Maryland and sometimes 
over into Virginia, the fact that one system works for that.
    Likewise, going east to west, as many people from 
Pennsylvania do, on the turnpike and the Jersey shore, we have 
interoperability. Now the question is, how do we do this as a 
country, as the United States?
    PBS recently rebroadcast the 25th anniversary of their 
landmark Ken Burns documentary, ``The Civil War.'' And it has 
been said that the Civil War changed the verbiage we use. 
Before the Civil War, the ``United States'' was said as a 
plural. After the Civil War, the ``United States'' was said as 
a singular.
    Well, I think part of further strengthening that is the 
Interstate System. I think that one of the great achievements 
of President Eisenhower was the Interstate System. And making 
sure that we have interoperability on our electric tolling is 
part of that.
    Now, I will read an opening statement for the record to get 
into more of the nitty-gritty, but please accept my thanks and 
appreciation for being here.
    Highways remain the primary method of transportation in 
this Nation. According to the Census Bureau, highway mileage in 
the U.S. exceeded 4 million miles in 2009, including more than 
46,000 interstate miles.
    According to Federal Highway Administration, just under 
6,000 miles of highway and bridge facilities in the U.S. are 
tolled, and the majority of States now have a tolled facility 
of some kind.
    Most toll facilities now utilize some type of electronic 
collection system. I would add as a quick aside, some States, 
including Pennsylvania, I know, are experimenting with strictly 
electronic tolling and no longer an option for any other method 
of payment.
    As a result of their individualized development, many toll 
authorities use transponder systems that are unique to them and 
not compatible with other systems. The MAP-21 legislation that 
Chairman Mica helped write requires that toll systems on 
Federal highways, ``implement technologies or business 
practices that provide for the interoperability of electronic 
toll collection programs by next year.''
    Right now, groups in industry, as has been mentioned, are 
working on two different but complementary approaches to 
achieve interoperability. One group, led by the International 
Bridge, Tunnel, and Turnpike Association, is working to develop 
a national toll protocol, meaning in plain terms a transponder 
system that could be utilized at all toll facilities in the 
Nation.
    Under this scenario, a single transponder system would be 
identified at all toll systems, would ultimately collect--would 
ultimately adopt this system, or utilize roadside equipment 
that could read the national transponder as well as their own 
unique transponder.
    There are already several regions of the country in which 
local toll facilities have adopted an interoperable electronic 
toll collection system. The largest of these regional groups, 
as I mentioned previously, is E-ZPass, whose membership 
encompasses 15 States and 26 separate toll authorities and 
systems, including the Pennsylvania Turnpike Commission.
    In 2014, there were nearly 17 million E-ZPass accounts and 
more than 28 million E-ZPass transponders in use, including two 
in the Boyle household. According to E-ZPass' Web site, the E-
ZPass toll system collects more than $10 billion in annual 
revenue, including $7.8 billion collected electronically and 
more than $3 billion transferred among participating agencies 
as drivers move through tolled facilities in States other than 
their home State.
    The E-ZPass system clearly demonstrates the advantages that 
could result from the creation of a single national transponder 
system.
    A separate effort is underway that seeks to stitch together 
the so-called back-office operations of toll authorities. The 
objective of this effort, which is being lead by the Alliance 
for Toll Interoperability, is to enable systems to exchange 
information on toll system usage by the various account holders 
so that fares, and presumably fines, can be exchanged among the 
systems. This would achieve a form of interoperability that 
would not entail the use of a single national transponder 
system.
    Certainly, while both efforts offer great promise to 
improve mobility in our Nation, each also understandably raises 
significant data security and privacy concerns. For example, 
toll systems will have data on a vehicle's registration and 
travel history, and they will have the credit card information 
associated with the driver's account. I am concerned to know 
what data standards are in place to protect this data as it is 
stored and especially if it is shared among tolling entities.
    So I look forward to examining these issues in more detail 
today. And I thank very much the chairman for calling this 
hearing and his good work on this issue.
    Mr. Mica. Thank you, Mr. Boyle.
    And other members?
    Mr. Grothman?
    Our vice chairman, Ms. Watson Coleman, did you want to make 
a comment or statement now?
    Mrs. Watson Coleman. Well, thank you, Chairman. I just want 
to say that I thank you for calling this subcommittee meeting 
to order here and giving us this opportunity to examine an 
issue that is very important. We kind of take it for granted. 
It may not be on that--you know, the theatrics and drama of 
other issues, but it impacts our quality of life.
    And I very much am a fan of E-ZPass. I use it to get back 
and forth from New Jersey to D.C. all the time. And I like not 
standing in line, waiting to throw my coins into the 
receptacle. But I also recognize that the movement of our 
traffic without having to stand in line is good for our climate 
and our environment.
    So I am very interested in hearing your perspectives and 
our various roles and how Congress can and should help. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you for your comments.
    And we have left the record open.
    And, furthermore, without objection, the chair is 
authorized to declare a recess at any time.
    And, with that, I would like to now recognize and again 
welcome our witnesses.
    I am pleased to welcome Mr. Jeffrey Lindley, Associate 
Administrator of the Office of Operations at the Federal 
Highway Administration, the Department of Transportation; Mr. 
Patrick Jones, executive director and CEO of the International 
Bridge, Tunnel, and Turnpike Association; Mr. James Eden, and 
he is president of the Alliance for Toll Interoperability; and 
Mr. Thomas Knuckey, who is the tolls technology sector manager 
at Atkins Global. Mr. Knuckey is testifying today as is a 
volunteer member of the International Bridge and Tunnel 
Association's Interoperability Steering Committee and is chair 
of that organization's Roadside Operations Subcommittee.
    Welcome, all.
    According to our committee rules, we are going to now--this 
is an investigations and oversight subcommittee and committee. 
If you would stand and be sworn. Raise your right hand.
    Do you swear to tell the whole truth and nothing but the 
truth before this subcommittee of Congress?
    Let the record reflect that all of the witnesses answered 
in the affirmative.
    And, again, we welcome you. I am not sure if--one or two 
faces look familiar. We limit the time to 5 minutes for a 
statement, and we will go through. You can also have additional 
information, data, submitted to the record with a request, and 
that will be made part of the record. I would like to get you 
to summarize, and then we will go through the panel and ask 
questions.
    So, again, welcome.
    And let me recognize first Mr. Jeffrey Lindley. And he is, 
again, the Associate Administrator, Office of Operations, at 
the Federal Highway Administration.
    Welcome back. And you are recognized, sir.

                       WITNESS STATEMENTS

                  STATEMENT OF JEFFREY LINDLEY

    Mr. Lindley. Thank you, Mr. Chairman. And good afternoon. 
Chairman Mica, Ranking Member Boyle, thank you for inviting me 
here today to discuss the MAP-21 provision regarding electronic 
toll collection, or ETC, interoperability. I am pleased to 
highlight FHWA's efforts for you today, as well as the progress 
we have seen the toll industry make toward implementation of 
the MAP-21 requirement.
    Achieving of national interoperability of ETC systems is an 
important issue that affects motorists who travel frequently 
between regions, such as long-distance truckers, and people 
living in close proximity to two or more regions that use 
different ETC approaches. These users must maintain multiple 
ETC accounts and transponders or use other methods of payment 
which are often more expensive and can create congestion at 
toll collection points.
    Although these users represent a fraction of the tens of 
millions of total ETC users, nationwide ETC interoperability 
would allow users to drive anywhere in the country without 
having to establish multiple accounts with ETC agencies or 
carry multiple tags.
    Prior to the passage of MAP-21, FHWA implemented a toll 
interoperability provision under SAFETEA-LU. We issued a final 
rule in 2009, and, although we could not establish a national 
standard at that time, the rule required agencies to consider 
regional interoperability in developing their toll collection 
systems, which helped accelerate progress toward nationwide 
interoperability.
    The E-ZPass Group provides a good example of regional 
interoperability. This consortium of 26 toll agencies in 15 
States has millions of interoperable devices in circulation and 
accounts for a significant portion of all toll transactions in 
the U.S.
    With regard to implementing the MAP-21 provision, while 
FHWA believes that a solution identified and developed within 
the tolling industry presents the best opportunity for 
achieving nationwide interoperability, we are committed to 
helping implement the requirement and have engaged with the 
tolling industry on a regular basis.
    FHWA meets regularly with IBTTA. In addition, we have met 
with ETC equipment manufacturers and back-office operating 
agencies. We monitor developments within the tolling industry 
and communicate with IBTTA and the equipment manufacturers to 
review implementation progress and identify actions that would 
help facilitate interoperability.
    As other panelists today can attest, this industry-led 
approach is yielding progress. For example, more tolling 
agencies are moving to all-electronic tolling, where tolls for 
users without a recognized tag are collected through license 
plate recognition and billing.
    IBTTA has developed a strategic plan and developed an open 
communications protocol based on the data requirements of 
current ETC transponder tags. This approach involves selecting 
a national transponder protocol that toll agencies could offer 
to their users who desire interregional or national 
interoperability while continuing to offer a traditional local 
or regional ETC transponder. The toll agencies would agree to 
read the national transponder and process interoperable 
transactions. Through equipment attrition, toll agencies would 
eventually transition to only national transponder tags.
    Last year, the IBTTA Board of Directors adopted this 
protocol and recommended that all toll agencies make the 
protocol available to any customer who desires national 
interoperability. IBTTA's efforts have also revealed the need 
for realworld testing of the protocol to ensure it could 
coexist with current transponders and to allow a gradual 
migration to a single protocol.
    For more near-term interoperability, the Alliance for Toll 
Interoperability has established a HUB pilot program that 
allows the exchange of toll transaction information among 
enrolled toll agencies, providing interoperability to users. 
Toll facilities in North Carolina, Georgia, and Florida now 
accept each other's tags. Likewise, toll facilities in Kansas, 
Oklahoma, and north Texas accept each other's tags. These are 
examples of agencies with different ETC protocols cooperating 
to offer users interoperability through advanced roadside 
readers and coordinated back-office billing processes.
    Finally, one ETC tag vendor recently introduced a tag that 
allows a user to establish an account with the vendor that will 
provide interoperability among the Nation's major ETC systems. 
The tag vendor establishes accounts with each system and 
handles the billing for the individual user, issuing a single 
statement for the tolls plus an administrative fee.
    An important aspect of this is now the availability of a 
North Carolina tag that offers interoperability with Georgia, 
Florida, and the E-ZPass facilities, which creates full East 
Coast interoperability for users who need it.
    Mr. Chairman, thank you again for the invitation to appear 
here today on behalf of FHWA. This concludes my remarks, and I 
would be happy to answer your questions when the time comes.
    [Prepared statement of Mr. Lindley follows:]
    [Testimony can be found at: https://oversight.house.gov/
hearing/status-of-toll-interoperability/]
    Mr. Mica. Thank you, Mr. Lindley. And we will get back to 
you with questions.
    But right now I am going to recognize Mr. Jones, who is the 
executive director and CEO of the International Bridge, Tunnel, 
and Turnpike Association.
    Welcome, sir. And you are recognized.

                   STATEMENT OF PATRICK JONES

    Mr. Jones. Chairman Mica, Ranking Member Boyle, and members 
of the subcommittee, my name is Patrick Jones. I am the 
executive director and CEO of the International Bridge, Tunnel, 
and Turnpike Association. I am honored to be here today.
    IBTTA is the worldwide association for the owners and 
operators of toll facilities and the businesses that provide 
products and services to the industry. Our mission is to 
advance transportation solutions through tolling. Founded in 
1932, IBTTA has more than 60 toll agency members in the United 
States and hundreds more in 20 countries on 6 continents.
    We commend you, Chairman Mica, for your work on this 
committee and for your leadership and vision on the 
Transportation and Infrastructure Committee.
    At the very outset, I want to acknowledge my industry 
colleagues on this panel: J.J. Eden, with the Alliance for Toll 
Interoperability; Tom Knuckey, representing the Roadside 
Operations Subcommittee of IBTTA's Interoperability Steering 
Committee; not on this panel but with us in spirit and 
extremely active in this process, Dave Kristick of the E-470 
Public Highway Authority, who is chair of our Interoperability 
Steering Committee; PJ Wilkins of the E-ZPass Group, the 
largest multi-State region of electronic toll interoperability 
in the world, who submitted testimony for the record, seated 
here in the gallery; Diane Scaccetti, CEO of Florida's Turnpike 
Enterprise, who also submitted testimony for the record; the 
Interoperability Steering Committee; the Board of Directors of 
IBTTA; and all the members and staff of IBTTA. Without their 
collective efforts, we would not be where we are today.
    IBTTA and its members are absolutely committed to the MAP-
21 goal of achieving nationwide interoperability of electronic 
toll collection programs. We established the Interoperability 
Steering Committee in 2010 to focus on the tasks needed to 
achieve nationwide interoperability.
    We have a simple vision: create a nationwide system of ETC 
interoperability in which any individual customer who chooses 
to do so may drive on any North American toll facility using a 
nationally interoperable transponder that is easy for the 
customer to use and cost-effective for the toll agencies. That 
transponder will have an open, nonproprietary protocol.
    We recognize that MAP-21 set a deadline for nationwide 
interoperability not later than 4 years after the date of 
enactment of this act. In fact, that deadline has been a 
catalyst to our industry, spurring tremendous activity that 
might not have been present without such a deadline.
    Getting there by 2016 is very ambitious, and it will 
probably take a bit longer for the industry to cross the finish 
line. Having said that, we have made huge progress.
    We have done our best to engage the entire North American 
tolling industry in the interoperability process, led by the 
steering committee. We have created the ``National 
Interoperability Protocol Requirements Document,'' a consensus 
document representing the views of virtually all North American 
toll agencies that outlines all of the performance requirements 
and features that must reside in the national toll protocol. We 
have created business rules for nationwide interoperability 
that describe in nearly every way how toll agencies will work 
together to clear financial transactions.
    Both the requirements document and the business rules have 
been adopted by the IBTTA Board of Directors. We have created a 
special panel to review and evaluate candidate protocols for 
conformance to the requirements document. We have retained a 
certifying body to oversee the testing and certification of the 
ETC protocols that are candidates to become the national 
protocol. And we have committed a quarter of a million dollars 
to pay for the first phase of this testing.
    All of this has been accomplished with a workforce 
consisting of hundreds of industry volunteers who have donated 
their time and energy to get this right.
    Once again, I am pleased and honored to be here today, and 
I look forward to responding to your questions.
    [Prepared statement of Mr. Jones follows:]
    [Testimony can be found at: https://oversight.house.gov/
hearing/status-of-toll-interoperability/]
    Mr. Mica. Thank you, Mr. Jones.
    And we will go now to Mr. Eden, president of the Alliance 
for Toll Interoperability.

                   STATEMENT OF JAMES J. EDEN

    Mr. Eden. Good afternoon, Honorable Chairman and 
distinguished members of the committee. I am pleased to join 
this distinguished panel to discuss an issue of concern to 
Congress, the public, the transportation industry, and 
especially the toll community.
    My name is James Eden, and I am vice president and director 
of tolling and managed lanes for AECOM, but today I am here as 
the president of the Alliance for Toll Interoperability, or 
ATI. And, as a volunteer for ATI, my statements and views 
represent my own opinions and that of ATI and are not of my 
employer, AECOM.
    ATI was established in 2008 at a meeting with 
representatives from Texas, Florida, and North Carolina as a 
not-for-profit 501(c)(6) membership organization focusing 
solely on toll interoperability and has been an integral part 
in advancing the national interoperability effort ever since.
    ATI was created and is wholly owned and governed by public 
toll agencies. It is currently comprised of 38 full and 
affiliate members spanning the United States and Canada. ATI 
funding is derived primarily from annual dues of $2,500 a year.
    But, early on, ATI developed a plan to address several 
issues. The number one was the rapidly expanding highway-speed 
toll deployments, or ETC deployments, that did not have a cash 
option. ATI decided to focus on developing a customer service 
solution, or HUB. ATI developed a multitiered timeline designed 
to meet customer expectations as systems were deployed and 
converted to all-electronic toll collection.
    The HUB was to be launched in phases. During phase 1, the 
HUB is capable of matching license plates from vehicles 
traveling in one State to valid accounts held in another State. 
This system does not include any personal information, as all 
data and personal information will continue to reside in 
existing toll agencies with an opt-in registration.
    We deployed the license plate HUB first to provide the 
needed interoperability for AET systems with current camera 
technology. However, we plan on deploying a transponder-based 
HUB by October of 2016 that will allow agencies to have 
multiprotocol readers, exchange data and fares.
    Some of ATI's other accomplishments to date are: We held a 
video shootout to bring missing advanced technology to the toll 
industry that had obsolete camera technology. The HUB was 
publicly bid and awarded to secure interagency flow in 
September of 2013. The HUB is scheduled to go live between 
Illinois and Florida in November of 2015.
    ATI established a committee between AAMVA, E-ZPass, other 
DMVs, and the ATI Working Group, and IBTTA to develop a 
reciprocity template in 2012. This will allow toll regions, 
States, and others to adopt a uniform approach to handling toll 
violations across State lines. We worked in concert with 
regional interoperability solutions to achieve these goals.
    However, the costs to participate in interoperability are 
significant, and the business case may be lacking for some 
agencies. Recognizing this, ATI is working on a change order 
with our vendors, and, in the process, we will enable toll 
agencies to operate for 1 year, with the only cost being that 
of transactions that are matched. It is anticipated that the 
period will show the value to the participants and encourage 
them to continue as ongoing members and support 
interoperability, as participation in the ATI HUB over the next 
few months is critical in order to hold our contracts with our 
technology vendors.
    In summary, ATI has successfully developed a data network 
contractual structure to enable toll operators in North America 
to be interoperable through their customer service centers. The 
ATI HUB initiative is complementary to the efforts of IBTTA and 
the National Interoperability Committee. The industry at large 
has responded with action and effort to the MAP-21 legislation. 
And I personally applaud this committee, Congressman Mica, for 
drawing attention to this issue.
    And, as an aside, it is not as easy as it looks. I was one 
of the founders of E-ZPass back when we did it, and it looks 
easy from the outset, but it was a rough road ahead.
    Thank you.
    [Prepared statement of Mr. Eden follows:]
    [Testimony can be found at: https://oversight.house.gov/
hearing/status-of-toll-interoperability/]
    Mr. Mica. Thank you, Mr. Eden. Thank you for your testimony 
and also for your leadership on this issue.
    We have less than 3 minutes to go to a vote.
    Welcome, Ms. Duckworth, our ranking member. Mr. Boyle did a 
great job. He even read an excellent statement into the record. 
Did you want to comment for a second?
    Ms. Duckworth. Not at this time.
    Mr. Mica. Okay.
    But what we will do, rather than short Mr. Knuckey and your 
testimony, we will recess until 3:15, and we will reconvene. 
You all could relax for a few minutes. You don't have to stay 
there. Just be back here at 3:15. We will reconvene, hear from 
that witness, and then we will go to questions.
    So we will stand in recess until then.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order.
    We were going through our witnesses, and we had patient Mr. 
Knuckey waiting, and I would like to recognize him. He is the 
tolls technology sector manager at Atkins Global. And he is 
testifying today as a volunteer member of the International 
Bridge, Tunnel, and Turnpike Association's Interoperability 
Steering Committee and as chair of that organization's Roadside 
Operations Subcommittee.
    So welcome.
    And thanks again, everyone, for your patience during the 
vote.
    You are recognized.

                 STATEMENT OF THOMAS S. KNUCKEY

    Mr. Knuckey. Thank you, Chairman Mica, Ranking Member 
Duckworth, members of the subcommittee, and guests. Good 
afternoon. My name is Tom Knuckey. I am providing this 
testimony as a volunteer member of IBTTA's Interoperability 
Steering Committee and as the chair of the Roadside Operations 
Subcommittee.
    It is my hope today to represent the voices of more than 
100 volunteers so as to provide more detail on the process and 
status the IBTTA committees have worked on. As a volunteer, my 
statements and views represent my own opinion and are not 
necessarily the opinion of my employer, Atkins North America.
    IBTTA's committee and subcommittees have worked diligently 
to meet the MAP-21 requirements by planning for technology and 
business practices leading to electronic toll collection 
interoperability within North America in a manner that allows 
customers to establish a single account for use on all toll 
roads.
    We envision customers with an IOP account with one agency 
could participate with any other toll agency. They can use the 
electronic toll lanes of any other participating agency 
nationwide. This would be accomplished in part by having toll 
systems read a common national interoperable transponder.
    There are various complexities to nationwide toll 
interoperability. One of these relates to the limitations of 
transponders and reader devices to be interoperable. Toll 
agencies have made major financial investments in eight 
existing protocols. These protocols can be thought of as unique 
languages that the electronics use to speak such that the toll 
transponder in a vehicle can communicate to the toll reader, 
thereby linking the vehicle to an account in milliseconds as a 
customer makes the toll payment.
    IBTTA's process has been to develop a requirements-based 
approach to select one of the existing protocols to become the 
national toll protocol. We created the Interoperability 
Steering Committee, and IBTTA then supported four 
subcommittees, each with specific responsibilities, including 
Governance, Interoperability Branding, Back-Office Operations, 
and the Roadside Operations Subcommittee, chaired by myself.
    Our focus has been the development of a requirements-based 
approach for a national toll protocol. To accomplish this, in 
2004 we published the industry consensus requirements document. 
We then shortlisted three of those existing eight protocols for 
further analysis. After this, we verified industry intent by 
asking both agencies and suppliers to nominate one of the three 
shortlisted protocols. All three received nominations and 
advanced to the next step.
    The subcommittee then commissioned a special panel, 
including technical and legal experts in the industry, to 
review the supplier responses as to their ability to meet the 
published requirements. This past July, two of those protocols 
were approved to begin the testing efforts.
    The next step is to test these two candidate protocols to 
validate technical conformance with the requirements. Earlier 
this year, IBTTA publicly procured the services of an 
independent testing entity, OmniAir Certification Services. 
Testing will be in phases.
    Conformance testing is now under development to ensure the 
specification used to make the candidate protocols are in fact 
able to be built as specified by others. This is critical to 
protect the goal of adoption of an open technology that can be 
provided by multiple suppliers. This phase should be completed 
by January and is entirely funded by IBTTA.
    The performance testing is the next phase. This will be 
used to ensure the candidate protocol devices meet the 
performance criteria of the requirements. This testing phase is 
currently unfunded and requires approximately $3 million in 
unidentified funds.
    At the completion of testing, IBTTA will select a single 
national protocol for interoperability. IBTTA will then create 
a certification process to validate that suppliers seeking to 
sell IOP devices have in fact met the IOP requirements. With 
the certification process, toll agencies will then be able to 
procure and implement IOP national protocol standard devices.
    We anticipate that all agencies will have to make some 
changes to their current tolling systems to support 
interoperability. This will likely require funding over time. 
This will take significant time, as agencies each have unique 
procurement processes. Once the IOP national toll protocol 
certification standard is in place, the suppliers will offer 
innovative solutions that ease the transition to nationwide IOP 
adoption through the use of multiprotocol transponders and 
readers.
    This standards-based certification process should create 
the market environment for more competition and innovative 
industry approaches, such as integration of the national toll 
protocol into new vehicle systems or perhaps into consumer 
electronics like smartphones.
    Much progress has been made in the IBTTA approach, almost 
completely through volunteer efforts. The process is now at a 
critical point. Funding is required to perform professional 
testing services and create a certification process.
    MAP-21 has provided the impetus for real interoperability 
progress. IBTTA has worked through complex issues and developed 
a process for national interoperability. The process has been 
defined, and the industry is preparing for interoperability.
    Thank you.
    [Prepared statement of Mr. Knuckey follows:]
    [Testimony can be found at: https://oversight.house.gov/
hearing/status-of-toll-interoperability/]
    Mr. Mica. Thank you. I guess that concludes your statement?
    Mr. Knuckey. Yes, sir.
    Mr. Mica. Appreciate it.
    And that concludes all four witnesses' statements.
    Again, we thank you for joining us and being part of 
today's hearing.
    We will turn now to questions, and I have some.
    We have heard about, again, standards being developed. And 
you just spoke to that, Mr. Knuckey. When do you think that 
they would come up with a universal or acceptable national 
standard? What timeframe?
    Mr. Knuckey. Our process is now that we are in the first 
phase of that testing of those two protocols that have so far 
cleared all the prescreening processes. We expect that to be 
complete by this January.
    Mr. Mica. Well, that would be setting the standard and then 
testing afterwards.
    Mr. Knuckey. Right. The standards are set----
    Mr. Mica. And then you mentioned the testing; there, you 
estimated about $3 million in costs for the testing.
    Okay, that will bring me over to Mr. Lindley.
    Is there any assistance available from the Federal 
Government under any of our programs maybe they could apply 
for? Or have you applied for any? Do you know of any, like, 
research and development or category--I think this is pretty 
important. And it sounds like they are absorbing a lot of the 
cost, but maybe there could be some way there could be some 
shared participation.
    Mr. Lindley. Yeah. We have looked at the possibility of 
using available research and technology funding to support 
elements of the testing that is planned, particularly the 
elements that help ensure that the technology is secure and 
reliable and works. We have not had discussions about funding 
potentially all of the testing, and we would be----
    Mr. Mica. Well, again, it could be a partnership.
    Mr. Lindley. Yeah.
    Mr. Mica. But these are commercial ventures. I don't know 
of anybody doing this just for the good of the order. But it 
would be incumbent on them also to participate. But it may be a 
possibility to bring you all together, if you haven't, to 
discuss some participation, because there is a public benefit, 
I believe, in doing this.
    But is that something that could be arranged, Mr. Lindley?
    Mr. Lindley. I think we can certainly have more 
conversation about that.
    Mr. Mica. Okay.
    Mr. Eden, are you the one that would help lead that?
    And, of course, you are the subcommittee chair, Mr. 
Knuckey. I am not sure the----
    Mr. Knuckey. Yes, sir. It would be----
    Mr. Mica. --pecking order.
    Mr. Knuckey. --Mr. Jones.
    Mr. Mica. Jones? Okay. Well----
    Mr. Jones. Mr. Chairman, yes. We would be the ones to----
    Mr. Mica. Got to get a commitment out of somebody before we 
get out of here.
    Mr. Jones. --be a part of those conversations.
    Mr. Mica. Okay.
    Mr. Jones. Yeah.
    Mr. Mica. Again, I think some type of partnership. My goal 
is to get you 1 year from now. I insisted on this hearing 
because they don't want to come a year from now and not have 
this done. And I think it is a fair--not a fair warning, but 
just working with you all--and I think you have done a great 
job to this point. Calling this hearing, I think, already 
brought some people closer together.
    That would actually lead me to one of my--well, let me, 
before I get to my question about 95--okay. You get to a 
standard, and under TEA-LU or--I guess it was--must have been 
TEA-LU, we had done some preliminary work; then we did the MAP-
21 requirement.
    The standard, is it necessary for that to be adopted by 
DOT? Should we have some legislation that gives you additional 
authority? Is what they are doing adequate, or should there be 
something that we nail down a little bit further?
    So first Mr. Lindley and then Mr. Jones.
    Mr. Lindley. Yeah, Mr. Chairman, we believe that the 
industry is making sufficient progress and, you know, has the 
finish line in sight on this. So we would not be seeking any 
additional----
    Mr. Mica. You have enough authority.
    Mr. Lindley. Yeah.
    Mr. Mica. And Mr. Jones?
    Mr. Jones. Mr. Chairman, I would just harken back to a 
conversation that happened 4 1/2 years ago in a hearing of the 
Highways and Transit Subcommittee of the T&I Committee, when 
the then-president of IBTTA testified and the subject of 
interoperability came up. And Congressman DeFazio asked my 
president, Frank McCartney, about interoperability and said, 
``Look, if we just said we want this to happen, you know, we 
want you guys to make this happen and do it by a certain date, 
we don't tell you how to do it, we just tell you please do it, 
is that something that would be agreeable?'' And his response 
was, ``We would support that.''
    So our understanding, our belief from the language in MAP-
21 is that we are not mandating--there wouldn't be a law to 
mandate a specific technology or set of business rules, that it 
would be in the hands of the industry to work that out.
    Mr. Mica. Uh-huh. Okay. Well, again, I trust industry, but 
I am sort of like Reagan; I trust and verify. I have had 
industry come up when we created TSA, the airline industry. 
``If we take this responsibility of screening away from you--
how much is it costing you now?'' ``A billion dollars.'' 
``Would you be willing to contribute that to help pay for 
this?'' ``Oh, yes, and it will relieve us of the liability,'' 
and, ``Oh, yes,'' and all the promises made. Then, not only did 
they never meet that, now they have totally walked away from 
it.
    So I just like to have things a little bit nailed down and 
make certain, again, that public interest is served. And it is 
something, I think, that will be advantageous to business, 
because you can conduct business nationally as opposed to just 
regionally or on a limited basis. But it does have some value 
and people can tweak it and people do play games, sometimes 
having set standards. So, again, there is a whole host of 
issues that we have to look at.
    Thank you, again, for coming together before the hearing 
and meeting and making decisions. And, most recently, I am told 
that you are pretty close to a decision on agreement between 
Maine or the northern part of 95 down to Florida. Who can 
comment on that? When is it going to happen? When can I use my 
pass?
    Mr. Jones. Mr. Chairman, I think I speak for all of us on 
the panel here that none of us can comment on that because none 
of us were present in the room when----
    Mr. Mica. But you have heard about it?
    Mr. Jones. We have heard about it, tangentially.
    Mr. Mica. Okay. So should I--so I will subpoena them to 
testify and get them in here. But I think that would be an 
exciting development.
    And the maps we have seen about the existing systems and 
coverage, it lends itself very well, particularly this part. I 
mean, members--Ms. Duckworth, it goes all the way over to 
Chicago. And I understand that the South has reached an 
agreement all the way towards California. Is that correct? 
Close to correct? No? I see some people are yes, some no.
    Mr. Eden. Yeah.
    Mr. Mica. But it is not done?
    Mr. Eden. Currently, Texas, Oklahoma, Kansas will be 
interoperable within the next few months. California is 
actually talking to the State of Washington because they are 
switching to the same technology, so you are seeing 
interoperability happen in that region also. Florida is talking 
to Texas to combine that link, in addition.
    So we are seeing a lot of interregional cooperation. And I 
personally think that is part of it. This is going to evolve. 
This is going to take a long time. You know, as you pick 
technologies, that is one piece. So you have the technologies 
piece, you have the standard that everybody agrees to, and then 
it has to be deployed. And that is----
    Mr. Mica. Well, just so we get it done by next October. We 
have a lot of time until then to get it done.
    In the interim, I understand that license plates will also 
be used as sort of an interim technology. Can someone explain 
what is going on there?
    Mr. Eden. Yeah, that is the ATI initiative, where we are 
taking license plate reads from one State--and all we have is 
the license plate number and the State; we don't have any 
personal information--and then putting it into a database and 
matching it against license plate numbers in another State.
    So if you are driving from Pennsylvania to Florida and you 
have an account in Florida and you use your transponder in 
Pennsylvania, they will pull it up, and they will say, ``Well, 
we don't have an account in Pennsylvania.'' They will send it 
to ATI. ATI will say, ``Oh, that license plate matches the 
account in Florida,'' which, by opening that account, you opt 
in to that program. So then we will be able to say, ``Okay, 
these two match,'' and Florida will deduct that amount from 
your account, and it will be transparent to the user.
    Mr. Mica. Okay.
    The other question that always arises is privacy and the 
data that you have. Are there adequate safeguards in place, or 
do we need some additional safeguards legislatively to protect 
the personal information?
    Mr. Eden. Well, the way we are setting up ATI, for 
instance, we don't have any personal data. We are not housing 
anything. There is no database of personal information.
    And, to date, I am not aware of any--and I don't like to 
say this because every time somebody says their system has 
never been hacked, somebody takes it as a challenge. But there 
has not been a major breach in any toll agency, you know, that 
has created anything like that.
    But everything is--it is a computer system. It is open. But 
I don't see any need for legislation. I don't know what 
legislation you could pass to actually help with that. The fact 
that that data is held in multiple locations across the country 
and not one centralized database also helps.
    Mr. Mica. Okay.
    Well, I may have some additional questions. I want to give 
Ms. Duckworth, who came in late, an opportunity both for any 
comment she wants to make and questions.
    So whatever time you need, I yield.
    Ms. Duckworth. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Gentlemen, thank you for coming here.
    I think the ideal from a consumer's perspective is that you 
can get in your car anywhere in the continental U.S. and get to 
any part of the continental U.S. and never have to change 
systems.
    And I am wondering about the regional nature of these 
systems and what does toll interoperability really mean. Are we 
moving towards that model at some point, where you can get in 
anywhere and navigate? Or is it going to be, you know, the 
Atlantic seaboard bloc down to Florida, Texas, and then you 
have California here. Is there a move to try to get to that?
    Mr. Jones. So, Ranking Member Duckworth, thank you for the 
question, and thank you for having all of us here.
    We have all testified about the efforts that have been made 
to bring about national interoperability. And the goal of all 
of us on the industry side is to make it as simple as possible 
for the consumer and as cost-effective as possible for the 
agencies. That is the goal that we are working toward, that 
there would be--any customer who wanted to drive on any toll 
system in the country would be able to do so using a single 
tag, a tag that meets the national toll protocol that we have 
developed, that our industry has developed, that is both open 
and nonproprietary.
    So we are moving toward that goal. And all of the regional 
interoperability is contributing to that. You are seeing a 
knitting together of the existing regions of interoperability 
to begin to make that happen.
    Ms. Duckworth. Are there any issues with individual States' 
finances? I come from Illinois, and we have some significant 
challenges in our State, obviously. Are there significant 
challenges for States that need to adopt some of the new 
technology within their tollway authorities? And anything that 
you think might be a stumbling block that you would need help 
with, or the States, that we need to keep our eyes open for?
    For example, if you have a State that is using the 
transponders but, you know, you need to install the license 
plate readers, as well, what those costs would--what those 
challenges are for States across the Nation.
    Mr. Eden. Yeah, I believe that there are going to be some 
challenges for some State toll agencies, especially the smaller 
ones. It depends what technology is chosen and what it will 
cost to swap out a reader or even, you know, eventually phase 
out the transponder to that national standard. That is why I 
have been talking about this happening over a period of time.
    So you are talking, you know, like, E-ZPass, I believe, has 
3,800 lanes of equipment. So a swap-out of equipment of that 
magnitude is substantial. And if you do it on the transponder 
side, which I don't believe we would have to, you know, you are 
talking about millions of transponders to change. It is like 
changing your credit cards; you know how difficult that can be.
    So I think there are going to be some financial challenges 
across the country from some individual States, some not. Some 
not. Even with ATI, signing up with the program, where we are 
saying, hey, look, we will do it for basically the transaction 
cost for the first year, there has been some reluctance because 
it is still a cost, it is still something they have to do.
    So I think, definitely, it is going to be a financial issue 
on the actual implementation side for some agencies.
    Ms. Duckworth. So, with that, sort of, building on what the 
chairman asked earlier, which is, he said if you have an 
agreement by January of 2016, tell me where you think you can 
be by December of 2016. If you have an agreement in January, by 
the close of 2016, where do you see?
    Mr. Knuckey. I will start with a response on that, Ranking 
Member Duckworth.
    By 2016, by the end of 2016, we hope--assuming we can have 
some funding for the testing, the critical performance testing 
area, we expect by the end of 2016, by hopefully this time to 
the end of 2016, we will have the process far enough along 
where we can have a certification process where industry can 
bring their devices to a certification service where there will 
be tested and certified as being interoperable. And what that 
does is opens up the opportunity for agencies to procure that 
certified device for national toll interoperability.
    Ms. Duckworth. So then we could start seeing some of this 
in consumers' hands by 2017?
    Mr. Knuckey. It depends on the procurement sequence of the 
individual agencies----
    Ms. Duckworth. Right.
    Mr. Knuckey. --but as soon as they have the financial means 
to do that and the business rule aspects worked out, yes.
    Ms. Duckworth. Is there any potential for using the system 
in order to offset some of the cost in terms of commercializing 
any portion of it? You know, you have this data that you are 
tracking for commercial trucking companies, the like. Is there 
any way to commercialize any of this in order to raise any kind 
of funds from the system?
    I mean, this is a trove of data, right? Just as we are very 
concerned--I am deeply concerned about data breaches and the 
security and privacy of individual consumers' data, and I think 
that it has to be more than--the answer has to be more than, 
``We have never been hacked, we have never heard of anybody 
being hacked, so it probably won't happen.'' That is not a good 
enough answer. And we will get to that.
    But on the other side of that is this is data that could 
potentially, I would think, be of value to commercial entities. 
And is there any way of looking at--is there any opportunities 
there?
    Mr. Eden. Frankly, ATI has been approached by a couple of 
commercial entities, both on the data mining side--and, again, 
there is a fine line there on the data privacy side, so you 
have to be careful.
    And, also, on probably the hottest electronic market right 
now is electronic payment systems. And, you know, once you put 
a transponder in a car that can do financial transactions, 
there are a lot of other industries, you know, even municipal 
parking, you know, commercial parking, fast food, all that type 
of stuff.
    But it is a balance between privacy and the 
commercialization and the mix of government and private 
entities. So I guess the short answer is, yes, but I think we 
have to proceed very cautiously in that area.
    Ms. Duckworth. With that said, what is the industry doing 
to be sure that, as these emerging potentials--as this 
potential emerges, that you are safeguarding privacy issues? Is 
there a subcommittee or a joint work group or a task force?
    I mean, Mr. Lindley, does, you know, the Department have 
any insight and potential into how to govern the potential 
commercialization of the data?
    Mr. Lindley. We have not had any discussions about how to 
commercialize the data. The toll collection data does get used 
in some applications, like traffic data collection, interaction 
with travel information, but none of those applications 
currently generate revenue. They go to public agencies, and 
then that information is shared.
    Ms. Duckworth. I am concerned. I mean, I think there is 
potential, but I am concerned about the security and safety of 
that data. And I think that, as we acknowledge, as your panel 
has acknowledged, if there is potential to make money, somebody 
is going to figure out a way to make money off of it. And if 
that is the case, then we should now on the front end be 
prepared to put in the safeguards so that we can make money off 
of it but in a way that protects the consumers.
    And, with that, I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Grothman?
    Mr. Grothman. Thank you. I would just like to thank the 
chairman for holding this hearing. I think it was said this is 
going to be an exciting hearing. I don't find it exciting, but 
it was an enjoyable hearing nonetheless.
    I am trying to figure out who to give this question to. We 
will ask Mr. Jones.
    Say, for every dollar collected a State gets off this, how 
much do you guys in general take? How much in general, the 
company that runs these tolls, how much do they take of that?
    Mr. Jones. If I understand your question, you want to 
know--could you come at me with that again?
    Mr. Grothman. Let's say you got $100--in the State of 
Wisconsin, we don't have tolls right now, but if the day comes 
when we get tolls, if I pay $100 in tolls to the State of 
Wisconsin or $100 tolls on the freeway, how much goes to either 
the upkeep of the toll system or the company that administers 
it or whatever?
    Mr. Jones. Well, it is a good question. And, Congressman, 
it is going to depend a lot on the individual configuration and 
environment of each toll system.
    Certainly, electronic toll collection, I can tell you the 
cost to actually collect the revenue has gone down 
significantly since it was first introduced in the late 1980s. 
And there is probably some variation from agency to agency as 
to the actual cost to collect that.
    So I am probably not the best person to tell you a specific 
percentage. I would defer to my colleagues.
    Mr. Grothman. Sure. We will go on to--I don't know, 
whoever.
    Mr. Eden?
    Mr. Eden. First, all the costs, as far as implementing the 
system and maintaining them, goes back to the individual 
agencies. So the State of Florida, Tampa, Hillsboro, you know, 
individually does that.
    As Pat said, it depends on a lot of factors, you know, how 
many violations they are getting, how they have to track it 
down, et cetera. But, basically, it costs probably around 10 to 
15 cents a transaction, for an electronic toll collection 
transaction.
    Now, currently, under video, it is more because somebody 
has to read the video. There is automatic, you know, optical 
character recognition, but, you know, somebody wants to verify 
that that is there.
    And then, also, currently, under that, which makes it a 
little bit more complicated, if there is not a--currently, 
without ATI, if there is not an account on file, somebody has 
to look that up through DMV, send letters out, usually three, 
which would cost the postage and everything else, which 
significantly ups that cost of collection.
    So all this will reduce the cost.
    As far as the groups, I wasn't real clear on the question. 
Pat's organization, IBTTA, is not for profit. They don't get 
any revenue from that. Neither does the ATI. It is just a bunch 
of toll agencies, so we don't get any revenue. It all goes back 
too.
    Mr. Grothman. Well, there has to be a general number, 
though, right?
    Mr. Eden. Okay.
    Mr. Grothman. I mean, if the State of Wisconsin in 1 year 
gets--I have no idea what it would be--a million dollars, for 
every million dollars, I assume if I am putting a million 
dollars in the cash box or a million dollars on--I guess 
Illinois calls it the I-PASS--I don't know if it is Illinois or 
interstate--how much of that million dollars that I pay works 
its way to the Wisconsin Department of Revenue?
    Nobody knows?
    Mr. Eden. It is a tough question.
    Mr. Grothman. In this computerized age, nobody knows?
    Mr. Jones. Well, it is also a factor that--again, I would 
return to my original statement that it is going to depend on 
the individual agency and their operations. What may happen in 
New York may be different from what happens in California, 
Pennsylvania, Texas.
    Mr. Grothman. Absolutely. But you must have an idea. Is it 
1 cent a dollar? Is it 5 cents a dollar? Is it 15 cents a 
dollar? I mean, give me a couple. Say this is what it costs in 
New York, this is what it costs in Florida.
    Mr. Jones. Yeah. We can show you studies that the cost of 
all electronic toll collection is down around 5 or less than 5 
percent of the value of the toll.
    Mr. Grothman. And it would be 5 cents to the company, plus 
what the State kicks in to set up this stuff and maintain it?
    Mr. Jones. Well, I don't know what you mean when you say it 
is 5 cents to the company. So, in other words----
    Mr. Grothman. Okay, 5 cents to the system. If I am the 
State of Wisconsin and I decide I am going to build a new 
interstate and on this interstate I am going to toll it, I can 
expect probably, if somebody says, yeah, let's go the toll 
route, I can expect that for every dollar that the motorist 
pays for their I-PASS or whatever that 95 cents will go to the 
State of Wisconsin. Is that accurate?
    Mr. Jones. In a mature, all-electronic toll collection 
system, yes, I would say you are probably in that range.
    Mr. Grothman. Is that accurate, you other guys?
    Mr. Eden. Yeah, if you are just looking at the cost of toll 
collection and not the cost of operation of the roadway and the 
debt services and everything else that is involved in that, but 
if you are just purely looking at the toll collection cost 
versus the toll, you know, the 5- to 10-cent ranges, and it is 
all electronic and you have enough people that it is 80 percent 
or more using that electronic transponder and not a lookup, 
that is a good number. That is why I keep qualifying it.
    Mr. Grothman. Am I already 8 minutes over, or what is this 
here?
    Mr. Mica. Just go ahead.
    Mr. Grothman. Okay. That is the benefit of being one of the 
diligent, caring, conscientious legislators here.
    So, okay, you said that is in a mature system, 5 cents. You 
kind of imply if it is not a mature system it will be higher. 
Is that right?
    Mr. Eden. Yeah. What generally happens when you implement 
any kind of toll collection system, it takes a while to get the 
tags out there, to get people to actually buy them.
    I was the COO for North Carolina, and we put a brand-new 
road--it was a greenfield road--in. So there was no toll roads 
in the State. And it takes a while for people to--they will 
drive on the road, but they don't have a transponder. So, at 
that point, they are not account holders; you have to look them 
up.
    So it takes a while to market, get that penetration rate up 
into that mature system where they are just going through and 
you don't have to do anything with the transaction except to 
read it. That is why the mature system--and, generally, it 
takes a year, year and a half, 2 years to actually get up to 
that, you know, 70-, 80-percent penetration rate.
    Mr. Grothman. Okay. I mean, for years and years--and I 
rarely leave my district now since I got this job, but years 
ago when I used to drive into Illinois, you know, they had the 
cash boxes and you throw the quarters in or whatever. Then, I 
take it, it was a lot more, huh, back in those days?
    Mr. Eden. Well, yeah, let me--cost of cash collection 
actually is a lot higher than electronic toll collection.
    Mr. Grothman. That is what I mean. It used to be a lot 
more.
    Mr. Eden. Yeah. I mean, you know, you are paying for 
somebody to count that money. In the cases of the coin boxes, 
they used to throw--I remember Garden State Parkway. You know, 
there is a lot of change that doesn't make the basket. It falls 
on the ground, and people try to scrape it up and things like 
that. But there is cost to doing all that. And then there is 
all the staff cost to collect it and the armored-car cost and 
everything else.
    Where, electronic toll collection, basically you drive 
through, and you collect the money. And there are credit card 
fees, et cetera, and it depends on your discount rates you have 
with the credit card companies and that, but, you know, the 
credit card is guaranteeing the fee, so it is a much easier, 
less costly transaction.
    Mr. Grothman. Okay. So I can expect the State of Wisconsin, 
if I report back to these guys, about a nickel off the top for 
the collection, plus whatever it costs to set up these things 
all over the highway.
    Mr. Eden. Yeah. And, generally, most toll agencies purchase 
the equipment up front. Now, some agencies run their own back 
office; however, most contract. There are a couple vendors--I 
don't know if they are in the room--you know, that actually do 
that. But, you know, so that would be a cost, and that is a bid 
contract negotiated.
    Mr. Grothman. Okay. And is there a study that says how much 
is saved per dollar collected to maintain the capital cost or 
whatever it is? Is that another penny? Two pennies? Do you 
know?
    Mr. Eden. Well, capital cost of the systems themselves, 
there are a couple things, and it depends on the type of 
systems. For instance, if you have--what type of classification 
system, how you are trying to determine if it is a car or a 
truck or what type of truck type deal. So that adds to the 
complexity of the systems also.
    Also, if you are tying it into your intelligent 
transportation systems, your ITS systems for smart city and 
things like that, a lot of people are looking at that today.
    So, again, it is not an easy answer just to say----
    Mr. Grothman. I know it depends, but there must be a study. 
One to 3 cents? Five to 7 cents?
    Mr. Eden. I don't have the study.
    Mr. Grothman. Nobody knows. A mystery. Okay.
    Well, I would like to thank my chairman for indulging me.
    Mr. Mica. Thank you. And it is an exciting hearing for me. 
Rarely around here can you make things happen, and it takes a 
while. We haven't got this totally in place, but you see it 
coming together, and I think it will be beneficial.
    It is interesting, though, just to--you don't have any toll 
roads?
    Mr. Grothman. No, we don't.
    Mr. Mica. Just in my district, around my district, I bet I 
have 150 miles of toll roads in central Florida and growing. 
And to expand the highway system, we did put the public-private 
partnerships, which is a means now to expand capacity and pay 
for it.
    Let me yield to the patient Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I, too, have many, many toll roads around us. And, in fact, 
we have a new one that is being formed that, thanks to the 
great Secretary Ray LaHood, we were able to actually extend and 
upgrade the Elgin-O'Hare Expressway and were given the decision 
to be allowed to actually toll an existing roadway that was not 
a toll road before because it is a short distance. But it is 
going to mean tremendous, tremendous opportunity for growth in 
the western O'Hare Airport area. So I shout out to Secretary 
LaHood and the Department of Transportation and all the team 
that worked on that.
    I want to go back to the cost of implementing. The chairman 
actually showed me this Ziploc bag with all the different 
transponders in it. And I remember what it was like when I 
switched from my old I-PASS transponder--yep, I had one just 
like this--to the smaller one, which I have in my car now.
    What is the cost of switching all of these out? If you go 
to this new system, I would imagine that there is an upfront 
cost, an investment cost, in either getting the consumers to 
bring these old systems back, mail them back, something to 
switch to eventually. I guess there is just this nifty little 
tag that you stick on your door. What does that cost?
    I mean, if we start to implement this, are we looking at a 
significant investment cost just for these things and for the 
consumers? Would there be additional costs? Would the consumers 
have to pay for the devices to start off with? How does that 
work?
    Mr. Eden. Well, we will both answer. I guess I will start.
    I think ideally what would happen, we would switch the 
reader part first. So if we had a common, we would go to a 
multiprotocol reader that would read the initial--whatever the 
agency is using, if it is E-ZPass, E-ZPass, and whatever they 
went to, 6X, whatever that is going to be. Right? And, 
therefore, people would be able to use their existing 
transponders until they expired normally. And then there would 
be a swap-out to whatever that new transponder is.
    Mr. Knuckey. We have looked at some of the costs of 
transponders. We conducted a nationwide survey as we started 
this process. And we found transponder costs range from the 
sub-$1 to the $25 range, with an average around $10 or so.
    But the transponder cost would only be necessary for those 
agencies that had to adopt the new technology. We anticipate 
that one of the national protocols will already be in use--or 
the chosen single national protocol will already be in use at 
many agencies. So agencies that already have that chosen 
protocol in use wouldn't have a cost of transponders. Other 
agencies would.
    And it is hard to project the exact cost of that until we 
know which is the winning protocol, so to say. But we would 
expect it would be hundreds and millions of dollars, 
ultimately.
    Ms. Duckworth. Up front, just for the implementation?
    Mr. Knuckey. Over the transition period to replace it.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Mica. Well, thank you. And thank you for participating.
    Do you have another question? Yeah, go ahead. And I have a 
couple.
    Mr. Grothman. When you gave me that 5-percent number, I 
assume--and, again, we don't have this in my State--but I 
assume that you probably usually always have a person at every 
cash box, right, just in case I show up and I don't have the I-
PASS or, you know, whatever.
    For that 5 percent, do you folks pay for the guy or gal at 
the cash box, or is that on the State?
    Mr. Jones. Well, just as a practical matter, if you were 
going to introduce tolling in your State----
    Mr. Grothman. Right.
    Mr. Jones. --you are probably not going to create cash 
booths. You are going to initiate it all-electronic. And you 
have an advantage that way because you don't have a history of 
all these booths existing.
    So the recommendation would be and probably the best 
practice would be to start with an all-electronic system. So 
you eliminate that particular toll collection, you know, human 
toll collection cost.
    Mr. Grothman. Okay. But then how do I--if I show up and I 
have no change, what do I do?
    Mr. Eden. Basically, that is where the license plate comes 
in. So if you don't have an account--let me walk through all-
electronic first.
    So in an all-electronic system, that marketing time I 
talked about where you go and you buy the transponder and you 
put money on the account and you would have the device to put 
in your windshield, then you would just be able to drive 
through at highway speeds. Basically, the toll collection 
system at that point, it works like a sign gantry, just like an 
overhead sign gantry, nothing else. So it has made it really 
simple for State DOTs and other people to implement, like, on 
managed lanes. And inexpensive.
    However, if you don't have an account or something happens 
and your transponder doesn't read, that is where the backup 
comes in, and it is the license plate. So we will always have 
to have the license plate in an electronic system for a backup 
to that system.
    So if you don't have an account, it will read the license 
plate. And in the case of ATI, they would send it to us. And if 
you had to count someplace else, it would be okay. If you 
didn't have an account anyplace, they would go to your State 
DMV, and the State DMV would then send that toll agency your 
license plate and information. And they would mail you an 
invoice, probably with the fee on it that is going to cost you 
a little bit more, because it costs them more to process that 
transaction.
    Mr. Grothman. Okay. Thank you much.
    Mr. Mica. Well, this is all an educating process, as you 
can see, for me, for Members of Congress, and the public.
    But there is some exciting technology. I took Mr. 
DeSaulnier up to New York, and we saw the using of the 
electronic pass in their realtime traffic management system. 
And that is pretty exciting, when you can take the signal from 
the pass, read it, and change out the signals, which moves 
traffic in very expedited fashion. And now they are doing that 
with a cell phone signal, too.
    Well, speaking of cell phone, how long before this device 
you think will be used? Are there any systems that now use 
this?
    Mr. Knuckey. I think, once we have a standard, industry 
will have something they can develop towards----
    Mr. Mica. Yeah. Some little kid as part----
    Mr. Knuckey. There actually are some that are experimenting 
with that, to be able to link your phone to a transponder. And 
so that is a potential.
    Mr. Mica. Yesterday, I met with the president of Greyhound, 
and he says, ``You know, we have an app that can--we can 
identify any Greyhound bus wherever it is right now and when it 
is going to be at its destination.'' And he was showing me the 
app. I said, ``Wow, that is great technology. How did you 
develop it?'' He said, ``We hired a bunch of kids.'' I guess 
they were basically college kids and young kids. There was more 
than 100. And they developed that, basically, for Greyhound. It 
was done by giving these little wiz kids that challenge.
    And it is in use. And you can tell where any bus is 
anytime, when it is going to get to wherever it is. So all you 
have to do is give it to a bunch of kids and they will figure 
it out, once you get your standards up.
    Mr. Eden. Yeah, I am glad you mention that because, again, 
on the ATI side, we have had discussions with car suppliers, 
car manufacturers, and cell phone companies. And the cell phone 
companies had a problem with, how do we determine who of the 
four people in the car are actually paying?
    Mr. Mica. Yeah.
    Mr. Eden. But technology is advancing. Every time we turn 
around, there is something new. I just got this in the mail 
yesterday. I am not going to tell you whose it is, but it is a 
card that holds all my credit cards and a whole bunch of other 
information that is tied to my cell phone.
    So if you can do that with this and Apple and Google and 
everybody are working with cell phones tied into the car, I am 
sure they could do the same thing eventually with the car and 
the cell phone.
    So I think that is going to be evolving technology. As far 
as timeframe, it is probably 5 years away maybe. That is just 
me guessing.
    Mr. Mica. Well, we are all surprised at the technology 
advances.
    We have been joined by Mr. DeSaulnier.
    I was just mentioning about our trip and seeing what they 
were doing. Did you have any questions?
    Mr. DeSaulnier. No. It has probably all been said. But just 
following your comments, Mr. Chairman, just a question--and 
maybe it is because I am from the San Francisco Bay area--of 
making sure that transponders may be, as you alluded to, 
ancient technology in 2, 5 years.
    So I know the California Highway Patrol is buying plate 
readers right now. To your point about whether there are two or 
three people in the HOV lane, part of the technology is so that 
they can do that without having a unit out there. Or electronic 
license plates. I have been told that electronic license 
plates--the people who are trying to sell that will tell you 
that that will facilitate a more accurate, more secure form of 
technology.
    So, as you do all this, it is all great stuff, but 
anticipating the technology is going to change so you don't 
have to go back out again and put a lot of money into the 
infrastructure, to the degree you can do that.
    Mr. Eden. Yeah, I think----
    Mr. Mica. I----
    Mr. DeSaulnier. I am sorry.
    Mr. Mica. I was just going to ask Mr. Lindley if there had 
been any thought to requiring a bar code on a vehicle.
    Mr. DeSaulnier. Yeah. Telematics in a car can almost tell 
the manufacturers almost everything they want to know anyway, 
so----
    Mr. Mica. I mean, I remember working in the rail industry 
when I was in college, and we used to take down the number of 
each boxcar. And today they are read instantaneously; they know 
where every boxcar is. You stop and think of the implications 
there. If it is embedded somewhere in the vehicle, you could 
find out where it is. There is just a whole host of things from 
safety and security.
    But I think we are going to see a lot of that, probably. 
The age is just dawning. And many vehicles, as we know, are 
embedded, and we have already had issues. Maybe that might be 
the subject of a hearing, protecting your car from getting 
hacked.
    But any comment, Mr. Lindley?
    Mr. Lindley. We haven't had any thought around requiring a 
bar code, if you will. There is technology that folks can opt 
in to that allows devices to be connected into their, you know, 
existing system so that they can be tracked if they get stolen. 
But that is strictly a consumer opt-in technology, not a 
requirement.
    Mr. Mica. Well, we also appreciate your willingness to 
hopefully get with these folks, if there is any way we can 
partner in helping them on the testing aspect. The goal is to 
get this place as soon as possible.
    And we might want to sit down with you as we are developing 
finalization of the successor to MAP-21 because we do have some 
requirements under that law for compliance by next October. I 
want to have a practical pathway to get this done--not 
overbearing but also something to hold your feet to the fire. 
And I will provide that at the appropriate time. Some months 
out, but it is going to come, because, again, I think sometimes 
we have a responsibility in Congress to make certain things 
happen.
    But I appreciate everyone's willingness to participate 
today, get sort of a reading, run the scanner over where we are 
on this project. And I thank members for their participation.
    There being no further business, again, I thank the 
panelists for coming. We will go ahead and we adjourn this 
subcommittee. Thank you.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
